Supreme Court, U.S.
FILED

OCT 0 7 2020
>

OFFICE OF THE CLERK

No.

2fn tfje

Supreme Court of tfje

States:

••

PATRICIA WOODS,
Petitioner,
v.
CALIFORNIA PUBLIC EMPLOYMENT RELATIONS BOARD, (PERB) and the
CALIFORNIA DEPARTMENT OF CORRECTIONS AND REHABILIATIONS
(CDCR), et al,
Respondents.

On Petition For Writ Of Certiorari
To the United States Court of Appeals
For the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Patricia Woods,
Petitioner
P.O. Box 96444
Las Vegas, NV
(702) 387-2636
Pro Se

INTRODUCTORY STATEMENT
Appellant Petitions for a WRIT OF CERTIORARI from denial of an appeal
before the U.S. Court of Appeal for the Ninth Circuit.
This is a case of government corruption where the Plaintiff/Appellant was
denied her federal due process rights because of unlawful acts by state attorneys
and others preventing a fair administrative hearing under her contract with Service
Employees International Union, (SEIU-Local 1000), and under the Ralph C. Dills
Act, (Dills Act), Government Code section 3512 et seq.
Petitioner seeks review because the Ninth Circuit committed a reversible
error by affirming the district court’s decision dismissing the Pro Se Petitioner’s
complaint with prejudice, after refusing to grant leave to amend the complaint to
allege new evidence in support of equitable tolling defenses to the applicable
statutes of limitations, thereby violating proper standards for de novo review while
failing to apply the liberal pleading standards of Rule 12(b)(6) for pro se claimants,
treating the statutes of limitations applicable to her federal statutory claims as
jurisdictional rather than procedural bars that could be tolled and/or waived by
equitable defenses.
Petitioner seeks a remand to the U.S. District Court, to address the circuit
split between the Ninth Circuit Court and other circuits related to equitable

n

estoppel, equitable tolling, illegal inferences, wrongful and corrupt acts by its state
attorneys and others.
QUESTIONS PRESENTED
1.

Whether the Ninth Circuit decision should be reversed and remanded

because the panel erred by fading to conduct de novo review affirming the final
judgment of the District Court dismissing with prejudice the Pro Se Petitioner’s
complaint, without granting leave to amend to bolster her equitable tolling, estoppel
and fraudulent concealment defenses to the applicable statutes of limitation upon
which the district court based its final judgment;
2.

Did the Ninth Circuit err when contrary to the holding in 14 Penn

Plaza requiring the Petitioner/Appellant to exhaust her administrative remedies
under California law and her union contract, it affirmed the District Court’s
decision applying the law in a manner that foreclosed application of equitable
tolling and equitable estoppel rendering Petitioner/Appellant’s federal claims
untimely?
3.

When determining that Petitioner/Appellant was barred by the

statutes of limitation that applied to her federal claims, did the Ninth Circuit err
when it affirmed the District Court’s decision that failed to weigh the actions of
state actors contributing to the “untimely fifing” ?

m

PARTIES TO THE PROCEEDING
Petitioner, Patricia Woods, is the Plaintiff in the District Court for the
Eastern District of California proceedings and the Appellant in the Ninth Circuit
Court of Appeals proceedings (referred to alternatively as “underlying federal
actions”).
The Respondents, the State of California, California Public Employment
Relations Board and the individually named defendants, Eileen Potter and Wendi
L. Ross, who work for PERB (collectively referred to herein as “PERB”), as well as
the California Department of Corrections and Rehabilitations (“CDCR”), and the
individually named defendants, Robert Storms and Larry Norris, each of whom at
all relevant times worked as employees of CDCR (collectively referred to herein as
“CDCR”), are the defendants in the underlying federal actions.
RELATED CASES
•

Woods v. State of California, No: 2:17-cv-00793. U.S. District Court, Eastern
District of California. Judgment entered August 27, 2018

•

Woods v. State of California, No: 18-16816, Order Denying Rehearing, United
States Court of Appeals for the Ninth Circuit, entered May 11, 2020.

•

Woods v. State of California, No: 18-16816, U.S. Court of Appeals for the Ninth
Circuit, Judgment entered February 7, 2020.

IV

TABLE OF CONTENTS
Page

INTRODUCTORY STATEMENT

11

QUESTIONS PRESENTED

in

PARTIES TO THE PROCEEDING

IV

RELATED CASES

IV

TABLE OF CONTENTS

v

APPENDIX

VLL

TABLE OF AUTHORITIES

Vlll

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1

STATUTES AND CONSTITUTIONAL PROVISIONS INVOLVED

2

INTRODUCTION AND STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

8

NINTH CIRCUIT DECISION

13

NO DE NOVO REVIEW IS CLEAR ERROR REQUIRING REVERSAL

13

FAILURE TO APPLY LIBERAL PLEADING STANDARDS TO
ALLEGATIONS OF THE COMPLAINT AND/OR PERMIT LEAVE TO
AMEND TO ESTABLISH BASIS FOR EQUITABLE TOLLING OF THE
STATUTE OF LIMIATIONS..........................................................................

17

NINTH CIRCUIT DID NOT APPLY CORRECT STANDARD OF REVIEW
FOR REJECTION OF EQUITABLE TOLLING DOCTRINE........................

22

v

TABLE OF CONTENTS Con't
Page
24

CIRCUIT SPLITS
Equitable Tolling Standards Are Not Uniformly Applied in the Ninth
Circuit and Other Circuit Courts of Appeals...........................................

24

Equitable Tolling,

24

EQUITABLE ESTOPPEL AND FRAUDULENT CONCEALMENT
DOCTRINES ARE ALSO APPLICABLE IN THIS CASE AND WERE
NEVER CONSIDERED BY THE NINTH CIRCUIT OR THE DISTRICT
COURT TO TOLL THE LIMITATIONS PERIOD FOR PETITIONER’S
FEDERAL CLAIMS........................................................................................
Equitable Estoppel

30
30

CONCLUSION

37

vi

APPENDIX
Memorandum Opinion, United States Court of Appeals for the
Ninth Circuit, (February 7,2020)...........................................................

App. 1

Reconsideration Order, United States Court of Appeals for the
Ninth Circuit, (May 11, 2020)..................................................................

App. 2

Judgment Order, U.S. States Court of Appeals for the Ninth Circuit,
(February 7, 2020)..................................................................................................... App. 3
Judgment Order, U.S. District Court for the Eastern District of
California, (August 27, 2018).....................................................................

App. 4

Order, U.S. District for the Eastern District of California,
(August 23, 2018)...............................................................................

App. 5

Magistrate Judge’s Findings and Recommendations,
U.S. District Court for the Eastern District of California,
(February 26, 2018),........................................................................

App. 6

Judicial Notice, Patricia Woods, Volume II, (September 28, 2017),
Dk. 41, pp. 1-3; pp. 60-69. U.S. District Court for the Eastern
District of California,.........................................................................................

App. 7

Judicial Notice, Patricia Woods, Volume II, (September 28, 2017),
Dk. 41, pp. 1-3; pp. 70-89. U.S. District Court for the Eastern
District of California..........................................................................................

App. 8

vn

TABLE OF AUTHORITIES
Page
Cases
Ashcroft v. Iqbal, 556, U.S. 662, 670 (2009)

17

Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 127 S. Ct. 1955, 167 L.Ed.2d
929 (2007).........................................................................................................

17

Burnett v. NY Cent. R.R. Co., 380 U.S. 424, 434-35 (1965)

24

Cada v. Baxter Healthcare Corp., 920 F.2d 446 (7th Cir. 1990)

32

Cann v. Carpenters’ Pension Trust for S. Cal., 662 F. Supp. 501, 505
(C.D. Cal. 1987)....................................................................................

31

Cervantes v. City of San Diego, 5 F.3d 1273, 1276 (9th Cir. 1993)

20, 25

Cervantes v. Countrywide Home Loans, Inc., 656 F.3d 1034, 1045
(9th Cir. 2011).........................................................................................

26

Conley v. Gibson, 355 U.S. 41,'45-46, 78 S.Ct. 99, 2 L.Ed.2d80 (1957)

18, 19

Davis v. United States, 642 F.2d 328, 331-32 (9th Cir. 1981)

16

Dawson v. Marshall, 555 F.3d 798 799 (9th Cir. 2009)

14

Delaware State Coll. V. Ricks, 449 U.S. 250, 261 (1980)

23

Electrical Workers v. Robbins & Myers, Inc., 429 U.S. 229 (1976)

23

Farfan v. Quality Pontiac-GMC-Buick, Inc., No. CIV 05-952
LCS/LAM, at *4......................................................................

31

Farmer v. D & O Contract Inc., 2016 WL 672565, at *4 *5th Cir.
Feb. 18, 2016)...............................................................................

27

First Natl, Bank of Portland v. Dudley, 231 F.2d 396 (9th Cir. 1956)

30

vni

TABLE OF AUTHORITIES Con't
Page
Cases
Giles v. Felker, No. 2:11-CV-1825-EFB (E.D. Cal., March 4, 2014)

20

Glus v. Brooklyn Eastern District Terminal, 359 U.S. 231, 232-33,
79 S. Ct. 760, 761-62, _L.Ed.2d 770 (1959)..................................

24

Granite State Ins. v. Smart Modular Tech., 76 F.3d 1023, 1027 (9th Cir. 1996)

22

Greenwich Firm Prods., S.A. v. DRG Records, Inc., 1995 WL 312477

31

Guerrero v. Gates, 442 F.3d 697, 706 (9th Cir. 2006)

32

Hanger v. Abott, 73 U.S. 532, 539-40 (1867)

24

Harrell v. Kellogg Co., 892 F. Supp.2d 716, 725 (E.D. Pa. 2012)

36

Haygood v. ACM Med. Lab., Inc., 2016 WL 944420, at *1
(2d Cir. Mar. 14, 2016)........ ...........................................

27

Hexcel Corp. v. Ineos Polymers, Inc., 681 F.3d 1055, 1060 (9th Cir. 2012)

26

Holland v. Florida, 560 U.S. 63 (2010)

27, 29

Holmberg v. Armbrecht, 327 U.S. 392, 396-97, 66 S.Ct. 582, 584-85
90 L.Ed. 743 (1946)............................................................................

29, 32

Jackson v. Rohm Haas Co., 2010 WL 935650, at 3 (2010)

14

Jensen v. Snellings, 841 F.2d at 606-07

29

Johnson v. Henderson, 314 F.3d 409, 414 (9th Cir. 2002)

25

Johnson v. Lucent Techs., Inc., 653 F.3d 1000, 1009 (9th Cir. 2011)
Leorna v. U.S. Dept, of State, 105 F.3d 548, 551 (9th Cir. 1997)

IX

23, 27

25

TABLE OF AUTHORITIES Con't
Page
Cases
Lucchesi v. Bar-0 Boys Ranch, 353 F.3d 691, 693, 696 (9th Cir.2003)

4

Lukovsky v. City & County of San Francisco, 535 F.3d 1044, 1048
(9th Cir. 2008)...................................................................................

15

Lukovsky v. City & County of San Francisco, 535 F.3d 1044, 1051-52
(9th Cir. 2008)........................................................................................

31

Marshall v. Kimberly-Clark Corp., 625 F.2d 1300, 1302 (5th Cir. 1980).:

21

Masonry Co. v. Greater Clark County Sch. Bldg. Corp., 659 F.2d 836,
838039 (7th Cir. 1981)............................................................................

33

Med. Air Tech. Corp. v. Maruian Inv., Inc., 303 F.3d 11, 18 (1st Cir. 2002)

33

Menominee Indian Tribes of Wisconsin v. United States, 136 S. Ct. 750,(2016);
193 L.Ed.2d 652 (2016)........................................................................................

3,26

Merritt v. Countrywide Financial Corp., 759 F.3d 1023 (9th Cir. 2014)

28

Nara v. Frank, 488 F.3d 187, 194 (3rd Cir.)

14

Santa Maria v. Pac. Bell, 202 F.3d 1170, 1176 (9th Cir. 2000)

32

Shane v. Fauver, 213 F.3d 113, 116 (3d Cir. 2000)

19

Shropshear v. Corp. Counsel of City of Chicago, 275 F.3d 593, 597
(7th Cir. 2001)...................................................................................

26

Sneed v. McDonald, 819 F. Supp. 1347, 1351 (Fed. Cir. 2016)

27

Speer v. Rand McNally & Co., 123 F.3d 658, 663 (7th Cir. 1997)

26

TwoRivers v. Lewis, 174 F.3d 987, 991 (9th Cir. 1991)

20

x

TABLE OF AUTHORITIES Con't
Page
Cases
Vaca v. Sipes, 386 U.S. 171, 183-84 and n.9 (1967)

36

Von Saher v. Norton Simon Museum of Art, 592 F.3d 954, 969
(9th Cir. 2010)................................................................. ...........

20

Wilson v. Garcia,471 U.S.261

24

Woods v. California, No. 2:17-cv-0793 TLN AC PS, 2018 WL 1071183
(E.D. Cal. Feb. 26, 2018).......................................................................

1

Woods v. California, No. No. 2:17-cv-0793-TLN-AC PS, 2018 WL 9986806
(E.D. Cal., Aug. 27, 2018).............................................................................

1

Woods v. Storms, 793 Fed. Appx. 542 (9th Cir. 02/07/20)

1

Worldcom, Inc. v. Graphnet, Inc., 343 F.3d 651, 653 (3rd Cir. 2003)

XL

19

TABLE OF AUTHORITIES Con't
Page
Statutes
§1981

23

28 U.S.C. § 1254(1)

2

28 U.S.C. § 16

9

28 U.S.C. §1658

3

42 U.S.C. § 1981

3

42 U.S.C. § 1981, 1985(3) and 1986

7

42 U.S.C. § 1981, 1985(3), and 1986

8

42 U.S.C. §§ 1981, 1985, and 1986

13

42 U.S.C. §§ 1985(3) and 1986.....

3

Rules
Rule 12

19

Rule 12(b)(1)

22

Rule 12(b)(6)

2, 7, 20,22,25

Other
Ralph C. Dills Act (Gov’t Code§§3512, et seq)

xn

24

PETITION FOR A WRIT OF CERTIORARI
Patricia Woods petitions for a Writ of Certiorari to review the judgment of the
United States Court of Appeals for the Ninth Circuit in this case.

OPINIONS BELOW
The Ninth Circuit’s opinion is reported as Woods v. Storms, 793 Fed. Appx.
542 (9th Cir. 02/07/20), and Case No. 18-16816 and it is reproduced at App.l,
(affirming decision of District Court). The Ninth Circuit’s denial of petitioner’s
motion for reconsideration and rehearing en banc is reproduced at App 2. The
opinions from the District Court for the Eastern District of California are reported
as: Woods v. California, No. No. 2:17-cv-0793-TLN-AC PS, 2018 WL 9986806 (E.D.
Cal., Aug. 27, 2018), reproduced as App. 4 and 5, adopting Woods v. California, No.
2:17-cv-0793 TLN AC PS, 2018 WL 1071183 (E.D. Cal. Feb. 26, 2018)), and
reproduced as App.6 (Order and Findings and Recommendations of U.S. Magistrate
Judge).(App. 6).

JURISDICTION
The Court of Appeals entered judgment on February 7, 2020. App, 1

. The

Court denied a timely petition for rehearing and en banc review, filed on March 23,
2020, on May 11, 2020. This Court extended the time for filing petitions for writs of
>

1

certiorari, due to the Coronavirus pandemic, from 90 days to 150 days after the
entry of judgment by the U.S. Court of Appeals denying a timely motion for
rehearing. See Supreme Court Rule 13 and Guidance Concerning Clerk’s Office
Operations (April 17, 2020), on the U.S. Supreme Court’s website. This Court has
jurisdiction under 28 U.S.C. § 1254(1).

STATUTES AND CONSTITUTIONAL PROVISIONS INVOLVED
This case involves interpretation of Federal Rule of Civil Procedure (“Rule”)
12 (b)(6), as applied to pro se complainants seeking to file an amended complaint
alleging new evidence in support of her equitable defenses to toll applicable federal
statutes of limitation, estop the defendants from asserting the statutes of limitation
as an affirmative defense, and provide evidence of fraudulent concealment sufficient
to satisfy the pleading requirements in cases where fraud is alleged.
The de novo standard of review for dismissal pursuant to Rule 12(b)(6) on
statute of limitations grounds also requires clarification where, as here, the lower
federal courts state that they understand this standard to apply, on the one hand,
but then give short-shrift (or no written consideration or explanation at all) to the
record or to their duty to calculate the accrual of applicable statute of limitations
and deduct time properly tolled (e.g., from pending state court appeals).

2

This case also involves interpretation of 28 U.S.C. §1658, the four-year
statute of limitations applicable to claim alleged pursuant to 42 U.S.C. § 1981, and
application of California’s two-year statute of limitations alleged pursuant to 42
U.S.C. §§ 1985(3) and 1986, and whether those procedural bars are subject to
common law doctrines of equitable tolling, equitable estoppel and/or fraudulent
concealment, pursuant to this Court’s holding in Menominee Indian Tribes of
Wisconsin v. United States, 136 S. Ct. 750,(2016); 193 L.Ed.2d652 (2016).
Additionally, this case involves reconciling interpretations of California law
(e.g., the Dills Act) and union contracts requiring exhaustion of state administrative
remedies through PERB with this Court’s decision in 14 Penn Plaza.
The Petitioner, a union employee, was required by the Dills act and her union
contract to exhaust state administrative remedies as a jurisdictional prerequisite to
further suit on federal causes of action that were inextricably intertwined with the
union’s cause actions before PERB. This case involves deprivation of federal
constitutional rights of due process when the state administrative proceedings were
marred by material conflicts of interest among the Administrative Law Judge and
the defense counsel for the named Defendants hired by PERB. (App. 7 and 8).
The claimant was not provided with due process during her PERB hearing,
as required by the Fourteenth Amendment to the United States Constitution.
Claimant was denied her federal statutory claims of racial discrimination resulting

3

in interference and conspiracy to interfere with Petitioner/Appellant’s SEIU
contract. (Amended Plaintiffs Opposition to Dismiss the First Amended Complaint
Against PERB, Eastern Dist. Dkt. No. 45).

INTRODUCTION AND STATEMENT OF THE CASE
Over eleven (11) years ago, the U.S. Supreme Court decided 14 Penn Plaza,
(No.07-581), (2009), and the Honorable Associate Justice Clarence Thomas wrote
the decision for the Court, requiring that which “binds the employees to the
agreement of their union and subjects the employee's statutory and other union
rights to binding labor arbitration so long as the CBA/MOU clearly and requires
arbitration of these claims. That was precisely the circumstance in Appellant's
case. The Ninth Circuit held “the plaintiffs ... [are] entitled to equitable tolling”
during the pendency of a state law claim submitted to a state entity. Lucchesi v.
Bar-O Boys Ranch, 353 F.3d 691, 693, 696 (9th Cir.2003).
In Petitioner/Appellants case, the Ninth Circuit Court ignored the holding in
14 Penn Plaza and ruled against this Petitioner, denying her equitable tolling and
ruled that her federal claims were untimely.
Here, Petitioner/Appellant seeks granting of the Writ to clarify the meaning
of the 14 Penn Plaza case requiring district courts to weigh the corrupt actions of
state actors contributing to the late filing of claims and applying the doctrines of

4

equitable estoppel and equitable tolling in appropriate circumstances before
foreclosing Petitioner/Appellant’s federal claims as untimely filed. (Amended
Plaintiffs Motion in Opposition to Dismiss, Eastern Dist. Dkt. No. 45).
In this case, the SEIU contract required exhaustion of administrative
remedies in all disputes. The Plaintiff spent over four years appealing through the
PERB's hearing system; two and a half years appealing through the state's
appellate court system, and two years appealing through the U.S. Supreme
Court system from the state-side of this case. (Amended Plaintiffs Motion in
Opposition to Dismiss, Eastern Dist. Dkt. No. 45, pp. 46-48).
The Petitioner’s case against the State of California, Public Employment
Relations Board, PERB, was dismissed by the Ninth Circuit Court of Appeals as
untimely, and that Court did not address PERB’s wrongdoing and corruption
throughout the process and PERB’s role in facilitating the late filing due to the
PERB’s wrongdoing, professional misconduct, and overall corruption effecting the
statute of limitation, equitable estoppel and equitable tolling. (App 7 and 8).
The Petitioner has been forced into filing unnecessary appeals and motions
and was subject to unfair treatment throughout her PERB proceedings. All of these
allegations are well documented during her U.S. District Court proceedings against
PERB.(Eastern Dis. Dkt No 41 and 45).

5

Petitioner filed timely motions with the Third District of Appeals of
California and the California Supreme Court asking them to take notice of the
wrongdoing and corruption at PERB. She also asked the court to make a factualfinding of these wrongdoings. This too was denied and both appellate courts decided
to look the other way regarding PERB’s wrongdoings. (App.7-8). (Amended
Plaintiffs Motion in Opposition to Dismiss, Eastern Dist. Dkt. No. 45).
Had the justices at the Third District Court of Appeal and the California
Supreme Court enforced the Courts’ judicial standards against PERB, the
Petitioner case would have been resolved years ago. (App. 7-8). (Amended Plaintiffs
Motion in Opposition to Dismiss, Eastern Dist. Dkt. No. 45). (Dkt. No. 41).
The issues presented in this case involve important questions of whether
procedural time bars can be asserted to defeat the application of equity in cases
where federal statutory rights and remedies are delayed by jurisdictional pre­
requisites contained in state law and union contracts regarding exhaustion of
administrative remedies and arbitration clauses.
This includes evidence in the District Court’s records showing government
corruption and interference with the case at PERB. The Petitioner has evidence
proving that the Administrative Law Judge and others at PERB, including the
former legal counsel for the CDCR, interfered with her right to receive a fair
hearing due to material conflicts of interest, unlawful activity (i.e., price-fixing, for

6

fees and other documents that delayed her ability to seek relief). (Judicial Notice,
Patricia Woods, Vol. II, CDCR, Dk., 09/28/17, U.S. District Court, Exhibit A:
“Unsealed Confidential Correspondence tq PERB”). As an example, the Defendant’s
defense counsel in this case was hired by PERB and allowed to work under the
PERB’s Board member who was ruling and deciding the Petitioner’s case decisions.
(App.7 and 8). The Petitioner claims that her federal statutory rights pursuant to 42
U.S.C. § 1981, 1985(3) and 1986 were violated by and through these administrative
hearings, giving rise to new claims based on her union contract related to
conspiracy to interfere with her contract, based on her race.
These evolving federal claims were not discovered by Petitioner until after her
administrative proceedings were finalized. Only then did she realize that she was
left REMEDILESS unless the federal courts granted her leave to proceed with her
federal statutory civil rights (race discrimination and interference with contract)
claims and deprivation of her constitutional due process claims.
The questions presented for this Court’s review are framed in terms of the
procedural errors that prevented Petitioner from having her day in court on the
merits. The substantive merits of her claims also underscore how courts are
expected to apply the proper standards of review for motions to dismiss
pursuant to Rule 12(b)(6), especially in cases involving pro se plaintiffs and
appellants.

f .
7

REASONS FOR GRANTING THE PETITION
The Ninth Circuit’s decision exposes the fault lines running within this
Court’s decision in 14 Penn Plaza. These fault lines create chasms that damage
claimants, like the Petitioner, in cases arising under 42 U.S.C. § 1981, 1985(3), and
1986. These fault lines exist in two ways.
The first fault fine is manifests when 14 Penn Plaza requires state union
employees, bound by arbitration provisions in their contracts, to exhaust
administrative remedies and forgo federal judicial forums for federal statutory
rights that exist at the time their grievances are filed.
The second fault line is manifest when, during the state administrative
proceedings, a claimant’s federal constitutional and other federal statutory rights
are violated by the administrative process itself. Here, the Petitioner raised federal
statutory claims against defendants within the administrative agency including
conspiring with her union and CDCR violating her union contract rights anew by
interfering in the enforcement of her contract during the administrative proceedings
and interfering with her right to file her federal statutory claims within the
applicable limitations periods. The conspirators engaged in misconduct, including
perpetuating conflicts of interest, violating price-fixing statutes, hiring of the
Defendants’ attorney at PERB, within one month of her concluding the

8

administrative hearings at PERB against the Plaintiff, and then allowing for this
same attorney to work under the PERB’s Board member hearing the Plaintiff case
ruling on each motion against the Plaintiff without disqualifying themselves from
the Plaintiffs proceedings. This obvious conflict of interest contributed to
Petitioner’s default on statute of limitation issues. (App. 7 and 8). (Amended
Plaintiff Opp., Eastern Dist. Dkt. No. 45).
Granting Certiorari is necessary for three reasons:
1.

To secure and maintain uniformity of this Court’s decisions, pursuant

to Fed. R. App. P. 35(a)(1).
2.

To clarify and reconcile how this Court’s prior decisions are to be

applied by the lower circuit courts in situations involving state union employees,
like Petitioner, who are caught between state exhaustion requirements imposed by
California law (e.g., the Ralph C. Dills Act), union contract, and the overarching
mandate of 14 Penn Plaza, and applicable limitations periods imposed by 28 U.S.C.
§ 16—(four-year period for section 1981 claims), state law (two-year limitations
period applicable to section 1985 and 1986 claims).
3.

To do justice, by exercising the Court’s equitable powers to grant the

for a Writ of Certiorari and provide a procedural map for future litigants who are
precluded from timely filing, thereby vindicating their federal statutory civil rights

9

claims for employment discrimination based on race, and obtaining their
constitutional due process rights to a fair day in court.
Petitioner is seeking a Writ that clarifies how state union employees, who are
required by state law and union agreements to exhaust all available administrative
remedies, in the first instance, as a jurisdictional pre-requisite to fifing a lawsuit in
state or federal court. These administrative remedies take so long to reach finality
that applicable statutes of limitation preclude vindication of federal statutory rights
that are coterminous with the union grievances and rights that arise from
administrative proceedings where conflicts of interest create due process violations
that rob claimants of a full and fair hearing to enforce their union contracts.
Additionally, and specifically, where (as here) state union employees assert
claims of unlawful contract interference and conspiracy by state actors that arise
out of and during state agency proceedings, this Court is asked to clarify that equity
should not be prematurely and procedurally barred, unless and until, in the exercise
of equity, a claimant is given a fair opportunity to have their day in federal court.
The essence of due process requires permitting pro se claimants an opportunity to
demonstrate why their claim(s) should be heard and considered as a matter of law.
At a minimum, lower federal courts need to be instructed to liberally construe
pleadings by claimants who have sought to exhaust administrative remedies and
then seek to vindicate their federal statutory rights, without the benefit of trained

10

counsel to guide them through the procedural maze of 14 Penn Plaza and the
various statutes of limitation and equitable tolling doctrines.
Evidence of wrongdoing by state administrative agency officials acting under
color of law is not easy to discover under the best of circumstances, even with a
trained lawyer as an advocate and second set of eyes. Federal courts should take
seriously the liberal pleading requirements when a pro se claimant seeks leave to
amend the complaint and when assessing whether the allegations of a complaint
are sufficient to make out a claim, especially when equitable tolling doctrines are
asserted as defense to a statute of limitations bar. First and second requests for
leave to amend are not burdensome to the court or opposing parties and are
regularly granted for claimants represented by counsel. Decisions asserting the
futility of a pro se claimant’s allegations and the lack of merit for equitable tolling
defenses are simply not good form.
For these reasons, and the others argued below, the Court should reverse the
decision of the Ninth Circuit, affirming the district court’s dismissal of her section
1981, 1985 and 1986 claims, by exercising its equitable powers to toll the four year
statute of limitations applicable to her section 1981 claim, and the two-year statute
of limitations for her section 1985(3) and 1986 claims. Only by tolling these
procedural limitations periods can the Court ensure that Petitioner has her
jurisdictional right to a day in federal court to vindicate her federal rights. This is

11

especially important where claimants could go REMEDILESS without intervention
by this Court, in situations such as the one existing in California where state
employees often find that they have no remedies at the end of the exhaustion
process, due to the futility engendered by unconstitutional, unlawful conflicts of
interest that deprive claimants of a neutral forum and a full and fair hearing.
Only through the exercise of equitable power will Petitioner be provided with
the remedies she needs to vindicate her federal statutory rights. Only through the
doctrines of equitable tolling, equitable estoppel, and fraudulent concealment, will
the accrual period toll for the statutes of limitations used to bar her suit, as argued
in both the District Court and Ninth Circuit Court of Appeals.
These equitable remedies also support reversal of the Ninth Circuit decision
affirming the denial of her first request for leave to amend, notwithstanding the
liberal standards of review for amendments in the federal rides of civil procedure
and the “Ninth Circuit’s general policy of extreme liberality regarding amendment”
(02/26/18 Opinion of Magistrate Judge Claire, at 13), which are even more forgiving
for claimants, like Petitioner, who proceed without counsel.
When a state union claimant is required to exhaust administrative remedies
for all claims arising under the union contract, including claims based on federal
statutory rights, the practical effect of 14 Penn is that it locks these claimants into
administrative proceedings without a way to seek help in the federal courts for

12

violations of federal law occurring within the administrative proceedings. (Amended
Plaintiff Opp., Eastern Dist. Dkt. No. 45, pp. 46-48).
Unless this Court grants this Petition for Certiorari, the federal civil rights
that belong to Petitioner under 42 U.S.C. §§ 1981, 1985, and 1986, will be lost; and,
she will be REMEDILESS, having first exhausted what ultimately proved to be
futile administrative processes with PERB.

NINTH CIRCUIT DECISION
There are a number of substantive and procedural reasons to reverse the
decision of the Ninth Circuit in this case, including that: (1) it did not actually
demonstrate that it made a de novo review of the entire record; and (2) it affirmed a
district court dismissal that did not, in fact, apply the liberal pleading standards
required by Fed. R. Civ. P. 12 or the Ninth Circuit’s own precedent.

NO DE NOVO REVIEW IS CLEAR ERROR REQUIRING REVERSAL
The Ninth Circuit recognized that when a federal circuit court is asked to
review a district court’s dismissal of a claim based on applicable statute of
limitations grounds, that review is “de novo”; but, beyond citing one of its own older
cases to support that written statement, the Ninth Circuit’s decision does not reflect
that it did not “defer” to the district court’s ruling, but, instead, “freely considered]

13

the matter anew, as if no decision had been rendered below.” Dawson v. Marshall,
555 F.3d 798 799 (9th Cir. 2009).
Indeed, a de novo review would not have been difficult to do since the district
court’s order dismissing Petitioner’s case was less than one page long and made no
substantive findings of its own; but, instead, despite noting that Petitioner filed
objections, simply adopted the findings and recommendations of the Magistrate
Judge in full and dismissed the case with prejudice, as recommended. Article III of
the U.S. Constitution, which gives authority to federal courts and the judges
appointed to them to decide cases, “requires de novo review of a Magistrate Judge’s
Report and Recommendations where a party timely objects” because a Magistrate
Judge is not authorized by Article III to render final determinations on the merits
unless both parties mutually consent. See Nara v. Frank, 488 F.3d 187, 194 (3rd
Cir.) and Jackson v. Rohm Haas Co., 2010 WL 935650, at 3 (2010). By failing to
conduct a de novo review of the record and well-written, substantially justified
briefs submitted by Petitioner in support of her claims, the district court committed
reversible error.
The Ninth Circuit, however, did not recognize this error, nor did it conduct its
own de novo review of the record, a fact that is manifest by its statement that the
district court’s dismissal of the section 1981 claim as untimely was proper because
Petitioner failed to file these claims within the applicable four-year statute of

14

limitations. Without identifying or calculating the time when this limitations
period began to accrue, but simply citing Jones, 541 U.S. at 382 for the rule that a
four-year “catch-all” limitations period applies to section 1981 claims, and Lukovsky
v. City & County of San Francisco, 535 F.3d 1044, 1048 (9th Cir. 2008), for the
proposition that the a claim accrues based on the discovery rule, the Ninth Circuit
affirmed the district court’s dismissal, which itself was one that failed to
demonstrate de novo review.
Even if de novo review of the record, including Petitioner’s written objections
to the Magistrate Judge’s findings, had not been required by both the district court
and the Ninth Circuit panel, the rationale offered in the Magistrate Judge’s Order
for her finding that the section 1981 claim was time barred leaves much to be
desired. That rationale relied on an assumed argument that Petitioner’s section
1981 claim “accrued as to all defendants when the termination of her employment
with CDCR became final on the date of PERB’S final decision affirming it
(10/12/10). This assumption missed the point of Petitioner’s section 1981 claim
altogether, because it tied the accrual to her wrongful termination and union
grievances without weighing the wrongful actions and omissions of PERB officials,
including the ALJ and other Board Members with conflicts of interest that
interfered with Petitioner’s right to enforce her union contract and obtain relief for
its breach.

15

The Magistrate Judge’s findings that the section 1985(3) and 1986 claims
were also time-barred and not entitled to the benefit of equitable tolling were
similarly flawed, because - as the Magistrate Judge noted - in the employment
context, “the claim accrues upon awareness of the actual injury” not “when the
plaintiff suspects a legal wrong.” Lukovsky, 535 F.3d at 1049 (citing multiple sister
circuits in agreement that notice of the legal wrong causing harm, not notice of a
discriminatory effect or motivation, starts the clock). See also Kubrick, 444 U.S. at
123 (statute of limitations begins to run only when plaintiff is “armed with the facts
about the harm done”). As this Court found in Kubrick, questioning whether one
has been harmed and knowing one has been harmed are not the same. A plaintiff
must be in “possession of the critical facts that he has been hurt and who has
inflicted the injury” because “the facts about causation may be in control of the
putative defendant, unavailable to the plaintiff or at least very difficult to obtain.”
444 U.S. at 122. See also Davis v. United States, 642 F.2d 328, 331-32 (9th Cir.
1981).
In her memorandum of law in opposition to defendants’ motion to dismiss, as
well as in her written objections to the Magistrate Judge’s order, findings and
recommendations to the district court, the Petitioner clearly alleged and argued
that she did not discover the harm from defendants’ unlawful interference with her
contract during the administrative process (i.e., the existence of federal statutory

16

claims that she had not filed within the statute of limitations) until after she
completed her state court appeals and filed her petition for Certiorari, in this Court,
which was denied. These allegations, and others, established the basis for
excusable delay based on fraudulent concealment, but the Magistrate Judge simply
cited the legal standards without analyzing any of the facts.
Given this flawed set of findings, the failure of the district court to conduct a
de novo review of the record resulted in clear error and required reversal. By failing
to conduct de novo review of the district court’s adoption of the Magistrate’s
findings, the Ninth Circuit compounded the errors made in the district court,
committing its own clear error.

FAILURE TO APPLY LIBERAL PLEADING STANDARDS TO
ALLEGATIONS OF THE COMPLAINT AND/OR PERMIT LEAVE TO
AMEND TO ESTABLISH BASIS FOR EQUITABLE TOLLING OF THE
STATUTE OF LIMIATIONS
The Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 127 S. Ct. 1955, 167
L.Ed.2d 929 (2007) (“Twombly”) ’’facial plausibility” pleading requirement applies to
all civil suits in the federal courts. After Ashcroft v. Iqbal, 556, U.S. 662, 670 (2009)
(“Iqbal”), it is clear that conclusory or “bare-bones” allegations will no longer survive
a motion to dismiss: “threadbare recitals of the elements of a cause of action
supported by mere conclusory statements, do not suffice.” Iqbal 129 S.Ct. at
1949. To prevent dismissal, all civil complaints must now set out “sufficient factual
17

matter” to show that the claim is facially plausible. This then “allows the court to
draw the reasonable inference that the defendant is liable for the misconduct
alleged.” Id. at1948. The Supreme Court's ruling in Iqbal emphasizes that a
plaintiff must show that the allegations of his or her complaints are plausible. See
Id. at 1949-50; see also Twombly, 550 U.S. at 555. n. 3, 127 S.Ct. 1955.
Iqbal additionally provides the final nail-in-the-coffin for the “no set of facts”
standard that applied to federal complaints before Twombly. See also Phillips, 515
F.3d at 232-33. Before the Supreme Court's decision in Twombly, and our own in
Phillips, the test as set out in Conley v. Gibson, 355 U.S. 41. 45-46. 78 S.Ct. 99. 2
L.Ed.2d 80(1957). permitted district courts to dismiss a complaint for failure to
state a claim only if “it appearjed] beyond doubt that the plaintiff can prove no set
of facts in support of his claim which would entitle him to relief.” Id.
A pleading offering only ‘labels and conclusions” or “a formulaic recitation of
the elements of a cause of action will not do.” Twombly, 550 U.S. at 555. 127 S.Ct.
1955: Phillips, 515 F.3d at 232. “Courts accept all factual allegations as true,
construe the complaint in the light most favorable to the plaintiff, and determine
whether, under any reasonable reading of the complaint, the plaintiff may be
entitled to relief.” Phillips, 515 F.3d at 233. The Supreme Court's opinion
in Iqbal extends the reach of Twombly, instructing that all civil complaints must

18

contain “more than an unadorned, the-defendant-unlawfully-harmed-me
accusation.” Iqbal, 129 S.Ct. at 1949.
Thus, in this case, the district court, in deciding a motion under
FED.R.CIV.P. 12(b)(6), was required to accept as true all factual allegations in the
complaint and draw all inferences from the facts alleged in the hght most favorable
to the Petitioner. WorldCom, Inc. v. Graphnet, Inc., 343 F.3d 651, 653 (3rd Cir. 2003).
This is especially true since the Petitioner was unrepresented by counsel.
Moreover, in the event Petitioner’s complaint failed to state a claim, unless
amendment would be futile, the district court was required to give Petitioner the
opportunity to amend her complaint. Shane v. Fauver, 213 F.3d 113, 116 (3d Cir.
2000). The District Court’s failure to grant leave to amend was a clear error,
because its futility analysis is unsupported by reference to factual evidence in the
record.
The Ninth Circuit, like the district court before it, failed to reconcile and
correctly apply the liberal pleading standards required by Rule 12 and by the
Circuit’s own time-worn practice of liberally construing the allegations of pleadings,
especially when claimants appeal without the aid of counsel and seek equitable
relief from a limitations bar. See Conley v. Gibson, 355 U.S. 41, 45-46 (1957). In
dismissing the Petitioner’s case, the Ninth Circuit broke not only from this settled
law, but also, contrary to its own precedent, failed to apply the liberal pleading

19

standards called for by the federal rules of civil procedure to the allegations of
Petitioner’s complaint and requests to toll the applicable statutes of limitation on
equitable grounds.
Ninth Circuit precedent shows that dismissal on statute of limitation grounds
can be granted “only if the assertions of the complaint, read with the required
liberality, would not permit the plaintiff to prove that the statute was tolled.”
TwoRivers v. Lewis, 174 F.3d 987, 991 (9th Cir. 1991). Similarly, in Von Saher v.
Norton Simon Museum of Art, 592 F.3d 954, 969 (9th Cir. 2010), the Ninth Circuit
reasoned that a claim cannot be dismissed under Rule 12(b)(6) on statute of
limitations grounds unless “the running of the statute is apparent on the face of the
complaint and it appears beyond doubt that the plaintiff can prove no set of facts
that would establish that the complaint is timely.” See also Cervantes v. City of San
Diego, 5 F.3d 1273, 1276 (9th Cir. 1993) (determination of whether equitable tolling
applies is generally not amendable to resolution on a Rule 12(b)(6) motion because
the decision requires “necessary resort to the specific circumstances of the prior
claim; parties’ involved; issues raised; evidence considered; and discovery
conducted.”).
In Giles v. Felker, No. 2:11-CV-1825-EFB (E.D. Cal., March 4, 2014), a
Magistrate Judge made findings and recommendations to the district court to reject
a statute of limitations argument by defendants, citing the decision by the Ninth

20

Circuit in Von Saher, because they could not show why the date of accrual should
not be determined to be later than the date of the ALJ’s final determination, “due to
plaintiffs administrative appeals” and application of the discovery rule and/or
continuing violation doctrine.
The Magistrate Judge found that the limitations periods should be tolled in
equity because it was not apparent on the face of the complaint what the “potential
impact of plaintiffs administrative exhaustion” efforts had on the failure to file
within the limitations period. Thus, it did not appear “beyond doubt” - at least to
that Magistrate Judge - that the plaintiff could not prove any set of facts sufficient
to establish either timeliness of the federal statutory claims and/or to support
equitable tolling or estoppel based on the discovery rule. In Giles, the Magistrate
Judge recommended denial of the defendant’s motion to dismiss without prejudice,
rejecting the statute of limitations bar, with leave to renew the argument on a
motion for summary judgment after discovery, since any dispute over facts
surrounding the date the statute of limitations began to run would, by itself,
warrant denial of the motion for summary judgment. See Marshall u. KimberlyClark Corp., 625 F.2d 1300, 1302 (5th Cir. 1980). Thus, rather than guess about
whether there was “any doubt”, the Magistrate Judge recommended that liberal
construction of the allegations required allowing some discovery to find out
whether, in fact, any doubt or factual dispute existed.

21

NINTH CIRCUIT DID NOT APPLY CORRECT STANDARD OF REVIEW
FOR REJECTION OF EQUITABLE TOLLING DOCTRINE
A district court’s refusal to apply the doctrine of equitable tolling is reviewed
by the court of appeals for abuse of discretion, but the underlying legal
determinations used to make that decision must be reviewed de novo and any
findings of fact are reviewed for clear error. See, e.g., Granite State Ins. v. Smart
Modular Tech., 76 F.3d 1023, 1027 (9th Cir. 1996).
Although the Ninth Circuit correctly indicated that review of the district
court’s decision not to apply equitable tolling to defeat the statute of limitations bar
was based on an abuse of discretion standard, it did not follow the rule it stated. In
its written decision, the Panel does not indicate that it reviewed the elements
necessary to establish equitable tolling or the allegations made to support it de
novo. Instead, it simply dismissed the case on statute of limitations grounds,
pursuant to Rule 12(b)(6) - treating this procedural bar, subject to waiver and the
defense of equity, as jurisdictional, almost as if dismissal could be based on Rule
12(b)(1) for lack of subject matter jurisdiction. This was an error.
Indeed, the Ninth Circuit’s rejection of the equitable tolling doctrine is
contained in only one sentence, where the Panel concludes that the district court did
not abuse its discretion because section 1981 claims do not require a claimant to
exhaust administrative remedies before filing a federal lawsuit (citing Johnson v.
22

Lucent Technologies, Inc., 653 F.3d 1000, 1009 (9th Cir. 2011)). In affirming the
district court’s dismissal for the same reason, the Ninth Circuit approved the
Magistrate Judge’s finding that section 1981 claims were barred by the limitations
period because “the pendency of a grievance or some other method of collateral
review” does not toll the statute of limitations period for a §1981 claim” (citing
Delaware State Coll. V. Ricks, 449 U.S. 250, 261 (1980) and Electrical Workers v.
Robbins & Myers, Inc., 429 U.S. 229 (1976). This is simply not true in many other
contexts where administrative exhaustion proceedings toll the statute of
limitations, as do mandatory state court appeals from those final decisions.
The Magistrate Judge was wrong when she stated that Petitioner made an
“initial choice” of a state forum for judicial review”; to the contrary, the state
administrative process was a compelled, jurisdictional prerequisite under California
Law (e.g., Ralph C. Dills Act), and her union contract. The Magistrate Judge’s
findings, the district court order, and the Ninth Circuit’s decision affirming both
reflect the basest form of judicial decision-making that lacks the particular analysis
that each case, which turns on its own facts, deserves. If conclusory allegations are
not sufficient to save a complaint from dismissal, Conley, 355 U.S. at 46, then
conclusory findings in a federal court’s decision should not be sufficient to save it
from reversal.

23

CIRCUIT SPLITS
Equitable Tolling Standards Are Not Uniformly Applied in the Ninth
Circuit and Other Circuit Courts of Appeals
The statutory purpose of civil rights law is to assure neutral rules of decision
available to enforce independent federal substantive rights. Wilson v. Garcia, 471
U.S.261. The administrative exhaustion requirements in California’s Ralph C. Dills
Act and Petitioner’s union contract impaired the enforcement of her contractual
rights under section 1981(c), just as the conspiracies inherent in the PERB
proceedings did, because they operated to delay the Petitioner’s adjudication of
federal rights in a timely manner. The equitable doctrines to tolling, estoppel and
fraudulent concealment can remedy this problem. See Glus v. Brooklyn Eastern
District Terminal, 359 U.S. 231, 232-33, 79 S. Ct. 760, 761-62, _L.Ed.2d 770 (1959)
(defendants should not escape liability by engaging in misconduct that prevents
plaintiff from filing claim on time).
Equitable Tolling
This Court has long held that common law equitable tolling principles
operate to suspend the statute of limitations during the period in which a plaintiff is
legally barred from bringing suit. Hanger v. Abott, 73 U.S. 532, 539-40 (1867). In
Burnett v. NY Cent. R.R. Co., 380 U.S. 424, 434-35 (1965), this Court affirmed
application of the tolling rule by the circuit court’s during the pendency of a state
suit until the state order became final, writing that “a uniform rule tolling the
24

federal statute for the period of the pendency of the state court action and until the
state court dismissal order becomes final is fair to both plaintiff and defendant, . . .
and best serves the policies of uniformity and certainty underlying the federal
limitations provision. Cada, 920 F.3d at 450 , (distinguishing between equitable
tolling, for which “reasonable time” was rejected as too uncertain in Hanger, and
the discovery rule, for which the Seventh Circuit applied the reasonableness test”).
The majority of the circuit courts following this common law tolling rule,
including the Ninth Circuit, have held that the determination of the applicability of
equitable tolling is generally not amenable to resolution on a Rule 12(b) (6) motion,
because it requires resort to the specific facts and circumstances of the case, “the
parties involved, issues raised, evidence considered, and discovery conducted.”
Cervantes v. City of San Diego, 5 F.3d 1273, 1276 (9th Cir. 1993). The Ninth Circuit
has held that, in cases where the plaintiff is not represented by legal counsel the
doctrine of equitable tolling is an equitable exception to the exhaustion requirement
and focuses on a plaintiff’s excusable ignorance and lack of prejudice to the
defendant. If a reasonable plaintiff would not have known of the existence of a
possible claim within the limitations period, then equitable tolling will serve to
extend the statute of limitations until the plaintiff can gather what information he
needs.” Leorna v. U.S. Dept, of State, 105 F.3d 548, 551 (9th Cir. 1997); Johnson v.
Henderson, 314 F.3d 409, 414 (9th Cir. 2002).

25

Equitable tolling is available only where “despite all due diligence, the party
invoking equitable tolling is unable to obtain vital information bearing on the
exercise of [a] claim.” See, e.g., Cervantes v. Countrywide Home Loans, Inc., 656
F.3d 1034, 1045 (9th Cir. 2011).

Equitable tolling is available in equity to toll the

period during which plaintiff, “acting reasonably, had neither actual nor
constructive knowledge of the facts giving rise to [the] claim despite [her] diligence
in trying to uncover those facts. See Hexcel Corp. v. Ineos Polymers, Inc., 681 F.3d
1055, 1060 (9th Cir. 2012). Examples of situations that justify the application of
equitable tolling are situations where defendants hide evidence, Cada, 920 F.3d at
450 citing Speer v. Rand McNally & Co., 123 F.3d 658, 663 (7th Cir. 1997), or by
deliberate or otherwise blameworthy conduct cause plaintiff to miss the statutory
deadline for filing a claim. Shropshear v. Corp. Counsel of City of Chicago, 275 F.3d
593, 597 (7th Cir. 2001).
Notwithstanding the Ninth Circuit’s failure to review the equitable tolling
defenses raised by Petitioner, there exists an emergent split in the Circuits
regarding whether the two-part test in Menominee Indian Tribe of Wisconsin v.
United States, 136 S. Ct. 750, 756 (2016), to determine application of equitable
tolling to relieve a plaintiff from the assertion of a statutory limitations bar to suit,
applies to any civil suit alleging a violation of federal laws, or whether it is confined
to cases involving federal habeas corpus. At least four federal circuit courts cases,

26

written within months of Menominee, applied the two-part test in various kinds of
civil cases, to define application of equitable tolling, refusing to limit it to the
habeas context. See, e.g, Knauf Insulation, Inc. v Brands, Inc., 820 F.3d 904, 908
(7th Cir. 2016); Sneed v. McDonald, 819 F. Supp. 1347, 1351 (Fed. Cir. 2016);
Haygood v. ACM Med. Lab., Inc., 2016 WL 944420, at *l.(2d Cir. Marc. 14, 2016);
Farmer v. D & O Contract Inc., 2016 WL 672565, at *4 *5th Cir. Feb. 18, 2016).
But there is confusion in the Ninth Circuit regarding what standard should
be applied. In this case, the Ninth Circuit, rather than applying Menominee’s two
part test, cited to Johnson u. Lucent Techs., Inc., 653 F.3d 1000, 1009 (9th Cir. 2011),
a case brought by a pro se plaintiff, alleging a section 1981 claim where the Ninth
Circuit rejected a request for leave to amend and dismissed the case, finding that
the complaint did not satisfy the California test for fraudulent concealment.
Equitable tolling standards were not discussed.
Given this vague and apparently inapplicable citation to a Ninth Circuit case,
in which it states the case sets “forth standard of review” for the single sentence by
the Panel stating that the district court did not abuse its discretion in finding that
equitable tolling did not apply to Petitioner’s section 1981 claims, it appears that
there may be a serious misapprehension of how the equitable tolling doctrine should
be defined (i.e., whether Menominee’s two-part test, a stricter test than Menominee
(as alluded to in Holland v. Florida, 560 U.S. 63 (2010)) or some variation of the

27

myriad forms of the equitable tolling doctrine used by the Ninth Circuit. Indeed, it
is difficult to know what test the Ninth Circuit applied in Petitioner’s case, which
alone is reason to reverse and remand this case.
Another confusing ruling by the Ninth Circuit was issued in Merritt v.
Countrywide Financial Corp., 759 F.3d 1023 (9th Cir. 2014). In Merritt the Ninth
Circuit addressed equitable tolling specifically in a RESPA context, yet it
nonetheless suggests that equitable tolling can apply even absent the element of
diligence and/or extraordinary circumstances. Instead, the court held that the
limitations period was not jurisdictional and stated that it could be tolled “until the
[plaintiff’ discovered or had reasonable opportunity to discover the violation. See
759 F.3d at 1036, 1040. This language closely tracks the standard for tolling under
the separate doctrine of fraudulent concealment, sometimes called equitable
estoppel, both of which are considered forms of equitable tolling.
As this Court knows, there is tremendous fluidity in the way these equitable
doctrines are identified by the lower courts, but one fact remains clear: equitable
tolling is distinct from the discovery rule. Tolling suspends the time that has begun
to accrue under a statute of limitations and does not require or assume that the
defendants have endeavored by actions or omissions to prevent the plaintiff from
suing; instead, it credits time based on legitimate factors such as efforts to exhaust
administrative remedies for a coterminous claim being adjudicated in collateral

28

proceedings. Equitable estoppel and fraudulent concealment, on the other hand,
postpone the date of accrual because the defendants by actions or omissions prevent
the plaintiff from discovering that she is a victim of fraud. See Jensen v. Snellings,
841 F.2d at 606-07; Holmberg v. Armbrect, 327 U.S. 392, 396097 (1946).
The discovery rule, on the other hand, precedes the accrual date for the
limitations period and provides evidence for starting the clock after the point of
actual injury, because the plaintiff has not yet discovered the injury and therefore is
not held accountable for filing a claim for relief, as a result. See, e.g., Cada v. Baxter
Healthcare Corp., 920 F.2d 446 (7th Cir. 1990).
The two-part test used in Menominee reflected the “general doctrine of
equitable tolling” when it found that a plaintiff must sufficiently plead facts to show
that (1) they diligently pursued their rights; and (2) an extraordinary circumstance
prevented them from timely fifing. See 136 S. Ct. at 756. The Menominee decision
relied upon a similar decision in Holland v. Florida, 560 U.S. 63 (2010).
In Menominee, the Court does not appear to have decided whether the twopart test for equitable tolling applies to any civil suit, and although there is general
agreement about the types of considerations that must be made when making
equitable decisions, there is not a single, uniform national standard for the
application of the equitable tolling doctrine, nor whether equitable tolling is an
overarching doctrine that includes theories of equitable estoppel and fraudulent

29

concealment, or whether it is its own, unique form of equity, set apart from
equitable estoppel and fraudulent concealment, both of which also have the effect of
tolling the limitations period, but which also require a showing that defendants
prevented the plaintiff from filing her lawsuit on time.
This case is ripe for review on the issue of whether equitable tolling applies to
save the case from statutes of limitation bars and, if so, which doctrine apphes.
This Court should grant the Petition to clarify whether the Ninth Circuit’s ad hoc
approach to assessing pro se plaintiffs equitable tolling claims (as reflected in the
underlying decision), and resolve the emergent split in the circuits regarding
whether Menominee’s two-part test is now a national standard to be applied to any
civil case where application of the equitable tolling doctrine is at issue; or, whether
' there is some other standard that should be used.

EQUITABLE ESTOPPEL AND FRAUDULENT CONCEALMENT
DOCTRINES ARE ALSO APPLICABLE IN THIS CASE AND WERE NEVER
CONSIDERED BY THE NINTH CIRCUIT OR THE DISTRICT COURT TO
TOLL THE LIMITATIONS PERIOD FOR PETITIONER’S FEDERAL
CLAIMS
Equitable Estoppel
“Equitable estoppel is an age-old principle of equity.” First Nat’l Bank of
Portland v. Dudley, 231 F.2d 396 (9th Cir. 1956). It stands for “the basic precepts of
common honesty, ordinary fairness, and good conscience in dealing with the rights

30

of those whose conduct has been prompted by reasonable good faith reliance upon
the knowing acts or omissions of another.” Id. (internal quotations omitted). It
“springs from the need to give relief where the strict enforcement of the rules of law
would be inadequate”, Greenwich Firm Prods., S.A. v. DRG Records, Inc., 1995 WL
312477, at *1 (S.D.N.Y., May 22, 1995); and, it is “a weapon in [the] court’s arsenal
of inherent equitable powers.” Cann v. Carpenters’ Pension Trust for S. Cal., 662 F.
Supp. 501, 505 (C.D. Cal. 1987) (citing Dudley, 231 F.2d at 400).
Petitioner’s status as an unrepresented person does shift the equities in her
favor such that her estoppel arguments should carry more weight. See Farfan v.
Quality Pontiac-GMC-Buick, Inc., No. CIV 05-952 LCS/LAM, at *4 (D.N.M. Nov. 8,
2005).The Ninth Circuit gave short-shrift to Petitioner’s assertion of estoppel in a
single sentence stating only and conclusively that it did not apply by citing
Lukovsky v. City & County of San Francisco, 535 F.3d 1044, 1051-52 (9th Cir. 2008),
a case it said explained the doctrine of equitable estoppel under California and
federal law. While Lukovsky does just that, this statement did not help Petitioner,
or anyone else for that matter, understand what about equitable estoppel did or did
not apply to this case or how the Court performed its de novo review. This was
reversible error.
Tolling doctrines stop the statute of limitations from running even if the
accrual date has passed .... [A] general equitable principle not limited to statute of

31

limitations context is equitable estoppel, which comes into play if the defendant
takes active stopes to prevent the plaintiff from suing in time.” See, e.g., Cada v.
Baxter Healthcare Corp., 920 F.2d 446 (7th Cir. 1990). Fraudulent concealment is
another related but distinct extension of the equitable tolling and estoppel
doctrines.
In Holmberg v. Armbrecht, 327 U.S. 392, 396-97, 66 S.Ct. 582, 584-85, 90
L.Ed. 743 (1946), the Court wrote that “[e]quitable estoppel in the limitations
setting is sometimes called fraudulent concealment.... To the extent that such
efforts succeed, they postpone the date of accrual by preventing the plaintiff from
discovering that he is a victim of fraud. The discovery rule, not to be confused with
equitable estoppel, is important, because the limitations period cannot begin to
accrue until the plaintiff has discovered;; or should have discovered in the reasonable
exercise of due diligence that the defendant injured her. Unlike estoppel
fraudulent concealment theories, require evidence that denotes efforts by the
defendant, above and beyond the wrongdoing upon which the estoppel claim is
based, to prevent the plaintiff from suing in time. See also Santa Maria v. Pac. Bell,
202 F.3d 1170, 1176 (9th Cir. 2000); Guerrero v. Gates, 442 F.3d 697,,706 (9th Cir.
2006).

If the Ninth Circuit had attempted to look at the equities, as the liberal
pleadings standards required, they would have seen that there is no automatic

32

accrual rule for the federal statutes of limitation applicable to Petitioner’s claims
because these bmitations periods were merely procedural, not jurisdictional; and
the discovery rule is robust enough to weed out stale claims without disregarding
the imperatives of equity. Here, the defendants want to blame Petitioner, the victim
of their conflicts of interest and conspiracies, for a barrier entirely of their own
making.
In short, the doctrine of equitable estoppel, as well as fraudulent
concealment, exist to preclude a party from enjoying the rights and benefits under a
contract while at the same time avoiding its burdens and obligations. See Hughes
Masonry Co. v. Greater Clark County Sch. Bldg. Corp., 659 F.2d 836, 838039 (7th
Cir. 1981); Med. Air Tech. Corp. v. Marwanlnv., Inc., 303 F.3d 11, 18 (1st Cir. 2002)
(dictim; collecting cases). This seems especially true when conflicts of interest that
violate professional rules of ethics by attorneys seek to preclude a federal cause of
action by a pro se plaintiff who has no legal representation.
To Petitioner’s knowledge, no appellant has raised the issue here presented
to this or any other federal court, namely: whether the statute of limitations for
federal statutory civil rights claims operates as a jurisdictional bar to suit when a '
claimant appeals the lawfulness of the administrative and arbitration proceedings
or merely a procedural bar that can be lifted when equity requires tolling of the
limitations period in the interests of justice.

33

The novelty of this question is not surprising, given that the exhaustion
requirements in state administrative agencies are exhausting, expensive and
extraordinarily difficult to navigate - especially by claimants proceeding pro se and
without counsel. This Court should grant review of this petition to eliminate
confusion and discrepancies among the circuits and clarify a uniform standard of
review for cases like this one.
The Petitioner does not seek to overturn 14 Penn Plaza!s rule, requiring a
state union employee to exhaust all administrative remedies and arbitrate union
contract claims and grievances before seeking an appeal in state or judicial forums,
when express terms in the employee-union member’s contract so indicated. Rather,
this petition for certiorari seeks to throw a spotlight on the hidden fault fines
between the 14 Penn Plaza decision and the fines that have opened up in the lower
federal courts, when state union employees seek to vindicate their union contract
rights, but fall into the chasm created by being forced into futile administrative
proceedings to exhaust remedies that they never receive because of the inherent
conflict, between state administrative agencies and the states and federal courts in
California.
As demonstrated by the Ninth Circuit panel, as well as by the District Judge
(which adopted the findings of a U.S. Magistrate Judge), the lower courts are
confusing the jurisdictional prerequisite to exhaust administrative remedies (and/or

34

mandatory arbitration provisions) in union contracts for union contract claims with
government employers with the procedural statute of limitations defenses to
maintenance of federal lawsuits concerning federal statutory and constitutional
civil rights laws that guarantee appellants, like the Petitioner, freedom from breach
or interference with her union contract on the basis of racial discrimination.
The Court’s decision in 14 Penn Plaza, left an open question regarding
whether there is a viable procedural path (and, if so, what it is) for litigants to
adjudicate federal statutory civil rights claims in federal court, when the
administrative and arbitral forums mandated for exhaustion of the union remedies
first, which are jurisdictional in nature and cannot be waived, do not, in fact,
adjudicate those rights or provide a fair hearing with minimal due process rights
under the Fourteenth Amendment.
In cases like this, where evidence establishing the existence of the federal
civil rights claims related to interference with a union contract arose from the
administrative process, but was fraudulently concealed by the administrative
agency (PERB) and individually named defendants, the union and the employer
(CDCR), principles of equity require the Court granting Certiorari of this petition
and, by permitting her to brief and argue the merits of this appeal, to toll applicable
statutes of limitation by estopping defendants from raising it to bar her federal
appeal. (App. 7 and 8).

35

Petitioner seeks to adjudicate her federal claims on the merits and asks this
Court to remand this case to the District Court, assign a new district judge, and
permit her to amend her complaint and begin discovery. See, e.g., Harrell v. Kellogg
Co., 892 F. Supp.2d 716, 725 (E.D. Pa. 2012).
Where the court did just that, commenting that “discovery might yield
another conclusion”). In so doing, this Court, will prevent a situation where
Petitioner would be left REMEDILESS and without any forum in which to air her
federal statutory claims. See, e.g., Vaca v. Sipes, 386 U.S. 171, 183-84 and n.9 (1967)
(“. . . because [the] contractual remedies have been devised and are often controlled
by the union and the employer, they may well prove unsatisfactory or unworkable
for the individual grievant” and “ leave the employee remediless in such
circumstances that would . . .be a great injustice.”).

36

CONCLUSION
For the foregoing reasons, the Court should grant a Writ of Certiorari.
Dated October 6, 2020
Respectfully submitted,

Patricia Woods,
Pro Se
P.O. Box 96444
Las Vegas, NV
(702) 387-2636

37

APPENDIX 1
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT
MEMORANDUM ORDER

Appendix 1

